      Department of Homeland Security




        U.S. Immigration and Customs Enforcement’s 

            Enforcement and Removal Operations’ 

         Contract Funding and Payment Processes 





OIG-13-80                                        April 2013

                         OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security
                              Washington, DC 20528 / www.oig.dhs.gov

                                      APR 24 2013

MEMORANDUM FOR:              Gary Mead
                             Executive Associate Director
                             Enforcement and Removal Operations
                             U.S. Immigration and Customs Enforcement

FROM:                        Anne L. Richards
                             Assistant Inspector General for Audits

SUBJECT:                     U.S. Immigration and Customs Enforcement’s
                             Enforcement and Removal Operations’ Contract Funding
                             and Payment Processes

Attached for your action is our final report, U.S. Immigration and Customs Enforcement’s
Enforcement and Removal Operations’ Contract Funding and Payment Processes. We
incorporated formal comments from the U.S. Immigration and Customs Enforcement’s
(ICE) Office of Management and Administration in the final report.

The report contains four recommendations aimed at improving ICE’s Enforcement and
Removal Operations’ contract funding and payment processes. ICE’s Office of
Management and Administration concurred with all four recommendations. Based on
information provided in ICE’s response to the draft report, we consider recommendation
1 open and resolved. Once ICE has fully implemented the recommendation, please
submit a formal closeout letter to us within 30 days so that we may close the
recommendation. The memorandum should be accompanied by evidence of
completion of agreed-upon corrective actions and the disposition of any monetary
amounts.

Recommendations 2, 3, and 4 are considered open and unresolved. As prescribed by
the Department of Homeland Security Directive 077-01, Follow-Up and Resolution for
Office of Inspector General Report Recommendations, within 90 days of the date of this
memorandum, please provide our office with a written response that includes your
corrective action plan and target completion date for each recommendation. Also,
please include responsible parties and any other supporting documentation necessary
to inform us about the current status of the recommendations. Until your response is
received and evaluated, recommendations 2, 3, and 4 will be considered open and
unresolved.
                            OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Consistent with our responsibility under the Inspector General Act, we are providing
   copies of our report to appropriate congressional committees with oversight and
   appropriation responsibility over the Department of Homeland Security. We will post
   the report on our website for public dissemination.

   Please call me with any questions, or your staff may contact Mark Bell, Deputy Assistant
   Inspector General for Audits, at (202) 254-4100.

   Attachment




www.oig.dhs.gov                               2                                       OIG-13-80
                                         OFFICE OF INSPECTOR GENERAL
                                                 Department of Homeland Security


Table of Contents
Executive Summary............................................................................................................. 1 


Background ........................................................................................................................ 2 


Results of Audit .................................................................................................................. 4 


           ICE’s Processing of Invoices ................................................................................... 4 

           ICE’s Corrective Actions ......................................................................................... 6 

           Recommendations ................................................................................................. 7 

           Management Comments and OIG Analysis ........................................................... 8 


Appendixes
           Appendix A:          Objectives, Scope, and Methodology ............................................ 10 

           Appendix B:          Management Comments to the Draft Report ............................... 12 

           Appendix C:          Major Contributors to This Report ................................................ 14 

           Appendix D:          Report Distribution ........................................................................ 15 


Abbreviations
           DHS                   Department of Homeland Security
           ERO                   Enforcement and Removal Operations
           FAR                   Federal Acquisition Regulation
           FY                    fiscal year
           ICE                   U.S. Immigration and Customs Enforcement
           MSD                   Mission Support Division
           OIG                   Office of Inspector General
           OBPP                  Office of Budget and Program Performance
           SAF                   Subject to Availability of Funds
                              OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


   Executive Summary
   U.S. Immigration and Customs Enforcement’s (ICE) primary mission is to promote
   homeland security and public safety through the criminal and civil enforcement of
   Federal laws governing border control, customs, trade, and immigration. One of its
   principal operating program offices is Enforcement and Removal Operations, which
   identifies and apprehends removable aliens, detains these individuals when necessary,
   and removes illegal aliens from the United States.

   During fiscal years 2010 and 2011 audits of Department of Homeland Security (DHS)
   financial statements, independent auditors noted concerns with recorded obligations
   for some Enforcement and Removal Operations contracts. Since the scope of the
   financial statements audit does not necessarily include an in-depth review of matters
   that are not material to the audit, we conducted a performance audit of the processes.
   Our audit objective was to determine whether ICE is appropriately managing its contract
   funding and payment processes.

   ICE did not appropriately manage its contract funding and payment processes. ICE
   rejected some proper invoices for contracts that included the Subject to Availability of
   Funds clause and did not accurately calculate or pay interest penalties on some proper
   invoices. These deficiencies occurred because ICE did not provide contractors with the
   required written notification, had standard operating procedures that instructed
   personnel to reject invoices, and did not timely make funds available in the financial
   system to process proper invoice payments.

   As a result, ICE’s rejection of proper invoices for Enforcement and Removal Operations
   contracts and inaccurate calculation and payment of interest penalties may increase its
   risk for interruption of contracted services essential to its mission to remove aliens,
   including convicted criminals who pose a threat to national security or are a risk to
   public safety.

   We made four recommendations intended to improve ICE’s management of its contract
   funding and payment processes. ICE concurred with all four recommendations.




www.oig.dhs.gov                                1                                       OIG-13-80
                                    OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security


   Background
   ICE’s primary mission is to promote homeland security and public safety through the
   criminal and civil enforcement of Federal laws governing border control, customs, trade,
   and immigration. The agency has an annual budget of more than $5.8 billion, primarily
   devoted to its two principal operating program offices: Homeland Security Investigations
   and Enforcement and Removal Operations (ERO).

   ERO identifies and apprehends removable aliens, detains these individuals when
   necessary, and removes illegal aliens from the United States. ERO prioritizes the
   apprehension, arrest, and removal of convicted criminals and those who pose a threat
   to national security or are a risk to public safety. It executes its mission through 7
   Headquarters Divisions and 24 Field Offices. The seven Headquarters Divisions are:

       1.   Secure Communities and Enforcement
       2.   Repatriation
       3.   Custody Management
       4.   Field Operations
       5.   ICE Health Service Corps
       6.   Law Enforcement Systems and Analysis
       7.   Operations Support

   ICE incurs expenses related to ERO activities from vendor contracts and similar
   agreements. These contracts also provide detainee services such as food, legal services,
   recreation, and medical needs. The Office of Acquisition Management awards and
   administers ERO contracts in conjunction with the ERO program office representative.

   Contracts that include the Availability of Funds (SAF) clause allow contracting officers to
   initiate contract actions chargeable to funds of the new fiscal year before these funds
   are available. 1 The SAF clause indicates to service providers that funds are not available
   for the contract at a particular date, and work may not begin until the contractor is
   provided written notification that funds are available.

   According to the Federal Acquisition Regulation (FAR) Section 32.703-2(c), “[t]he
   Government shall not accept supplies or services under a contract conditioned upon the
   availability of funds until the contracting officer has given the contractor notice, to be

   1
    The Availability of Funds clause is commonly referenced as “Subject to Availability of Funds (SAF)” on ICE
   documents.


www.oig.dhs.gov                                        2                                                OIG-13-80
                                   OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security


   confirmed in writing, that funds are available.” Additionally, ICE contracts that include
   the SAF clause indicate, “ICE will neither present detainees to the service provider
   [contractor] nor direct performance of any other services until ICE has the appropriate
   funding …Performance under this Agreement is not authorized until the Contracting
   Officer issues an order in writing.”

   Prior to the beginning of the fiscal year, ICE’s Office of Budget and Program
   Performance (OBPP) sends ERO’s Mission Support Division (MSD) spend plans with
   estimated levels of spending. OBPP considers the approved spend plans to determine
   the amount of funds it provides to ERO. Subsequently, ERO MSD allocates these funds
   to field offices and headquarters. The agreed-upon spend plans show how ERO plans to
   use its funds throughout the fiscal year (FY) by category within the program.

   The ICE Dallas Finance Center obligates funds for ERO contracts in ICE’s Federal Financial
   Management System (financial system) after consideration of contract actions
   performed by the ICE Office of Acquisition Management and the funds allocated by MSD
   to the pertinent field office or headquarters.2 These obligations determine the funds
   available for processing payments for ERO contract invoices.

   The ICE Burlington Finance Center and ERO Contracting Officer Representatives review
   invoices for ERO contracts and approve or reject the invoices for payment. When
   information is missing, incorrect, or obligations are insufficient, the invoice is returned
   to the contractor with a rejection memorandum stating the reason(s) for rejection.

   Contractors are entitled to interest penalty payments if their proper invoice is not paid
   promptly or is erroneously rejected. According to FAR Section 32.906, if the ICE billing
   office erroneously rejects a proper invoice, it should calculate and pay the contractor
   the original invoice amount as well as the associated interest amount.

   During FYs 2010 and 2011 audits of DHS financial statements, independent auditors
   noted that ICE recorded obligations at $0 for ERO contracts that included the SAF clause.
   Since the scope of the financial statements audit does not necessarily include an in-
   depth review of matters that are not material to the audit, we conducted a performance
   audit of the processes.



   2
    According to the U.S. Government Accountability Office, obligating funds means that they are committed,
   and the government has a legal duty, which could become a legal liability, to pay for goods and services
   ordered or received (A Glossary of Terms Used in the Federal Budget Process, September 2005, p. 70).


www.oig.dhs.gov                                        3                                              OIG-13-80
                               OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


   Results of Audit
   ICE did not appropriately manage its contract funding and payment processes. It
   rejected some proper invoices for contracts that included the SAF clause and did not
   accurately calculate or pay interest penalties on those invoices.

   These rejections occurred because ICE did not provide contractors with written
   notification of funds availability for ERO contracts that included the SAF clause before
   contractors provided services. Additionally, ICE standard operating procedures
   instructed its personnel to reject proper invoices when the funds were not obligated in
   its financial system. Finally, ICE did not obligate sufficient funds timely to process
   proper invoice payments.

   As a result, ICE’s rejection of these proper invoices and inaccurate calculation and
   payment of interest penalties for ERO contracts may have increased the risk of
   interruption of contracted services essential to its mission to remove aliens who present
   a danger to national security or are a risk to public safety.

           ICE’s Processing of Invoices

           ICE’s rejection of proper invoices and inaccurate calculation and payment of
           interest penalties due to the contractor violates the FAR. Out of 20 rejected
           invoices we reviewed for contracts that included the SAF clause, ICE rejected 4
           proper invoices. The rejection notices listed reasons such as “Contract is Subject
           to the Availability of Funds… Please resubmit once funds are available... Subject
           to Availability of Funds contracts are not billable until funds are available.”
           These reasons do not constitute appropriate criteria for rejection. Additionally,
           these proper invoices should have incurred interest penalties because they were
           rejected improperly.

           According to FAR, Subpart 32.9, “Prompt Payment,” interest penalty payments
           must be paid in addition to the amount(s) of the erroneously rejected proper
           invoices. Specifically, FAR Section 32.906(b)(4) states, “When it is determined
           that the designated billing office erroneously rejected a proper invoice and upon
           resubmission of the invoice, [the designated payment office] will enter in the
           payment system the original date the invoice was received by the designated
           billing office for the purpose of calculating the correct payment due date and any
           interest penalties that may be due.”




www.oig.dhs.gov                                4                                        OIG-13-80
                               OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


           ICE should have calculated and paid interest penalties, as required by the FAR,
           for these improperly rejected proper invoices. ICE subsequently paid the
           rejected invoices, but without accurately calculating and paying interest
           penalties to the contractor. Of the 20 rejected invoices we reviewed, 4 were
           paid a total 270 days late. This practice of rejecting proper invoices and not
           paying interest penalties violates the FAR and increases the risk of interruption
           of services for detention and removal of aliens.

           ICE’s Written Notification of Funds Availability to Contractors

           ICE does not provide contractors written notification of funds availability for ERO
           contracts that include the SAF clause. This violates the FAR and the underlying
           contracts and agreements. Four of the ICE contracting officials we interviewed
           did not notify contractors of funds availability in writing before the contractors
           began work. One contracting official considered the initial contract modification
           to be sufficient notification. However, this modification listed the dollar value at
           $0, reiterated that funds were not available, and stated that the contracting
           officer would provide availability of funds in writing. The modification did not
           satisfy the FAR requirement.

           In addition, a contractor performing detention-related work for ICE informed us
           that contracting officials had not provided the required notification for the past 4
           years. ICE’s practice of not providing this required written notification has
           created a situation where the contractors start work before funds are available
           to process payments at the ICE Burlington Finance Center.

           An Office of Acquisition Management official believed that the SAF clause
           indicates to the vendor that funds are not available at the time, but that services
           need to continue. According to this official, if a contractor chooses to perform
           work under a contract that includes the SAF clause when funds are not available
           for payment, the contractor is working at its own risk. This official explained that
           maintaining services for detention contracts is critical and that services need to
           continue. However, we determined that detention services are regular, ongoing,
           nonemergency services, and not exempt from the FAR requirements.

           According to FAR Section 32.703-2(c), “The Government shall not accept supplies
           or services under a contract conditioned upon the availability of funds until the
           contracting officer has given the contractor notice, to be confirmed in writing,
           that funds are available.” Additionally, contracts including the SAF clause



www.oig.dhs.gov                                 5                                         OIG-13-80
                                OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security


           indicate, “ICE will neither present detainees to the Service Provider [contractor]
           nor direct performance of any other services until ICE has the appropriate
           funding … Performance under this Agreement is not authorized until the
           Contracting Officer issues an order in writing.”

           ICE’s Standard Operating Procedures

           ICE’s standard operating procedures instruct personnel responsible for
           processing invoice payments at the ICE Burlington Finance Center to reject
           proper invoices when funds are not available in the financial system. According
           to the standard operating procedures, a contract that includes the SAF clause
           directs that the contractor shall not provide services until the contracting official
           provides funding via a contract modification to the contractor. If these
           conditions are not met, no payments may be authorized and the invoices must
           be rejected.

           However, FAR Section 32.904(b) contradicts ICE standard operating procedures.
           It indicates, in part, that generally, the due date for making a payment to a
           proper invoice is the later of the 30th day after the designated billing office
           receives a proper invoice from the contractor, or the 30th day after Government
           acceptance of supplies delivered or services performed. The FAR does not
           suggest unobligated funds as a reason for rejecting a proper invoice.

           ICE’s Obligation of Funds

           ICE allowed contractors to perform work without sufficient funds obligated in its
           financial system. Although a written agreement between the agency and
           contractors for services existed, 17 of the 20 rejected invoices reviewed did not
           have sufficient funds obligated until after the performance start date listed on
           the invoices. According to Title 31 of the U.S. Code, section 1501(a), an amount
           must be recorded as an obligation when supported by documentary evidence of
           a binding agreement between an agency and another person, provided that it is
           in writing and executed while the appropriation is available.

           ICE’s Corrective Actions

           In FYs 2010 and 2011, independent auditors issued notices of findings and
           recommendations noting that ICE recorded obligations at $0 for ERO contracts
           that included the SAF clause. These notices also included ICE’s concurrence of



www.oig.dhs.gov                                  6                                         OIG-13-80
                               OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


           the findings and need for corrective action. ICE officials provided various
           explanations concerning the progress of corrective actions to remediate these
           findings.

           In March 2012, officials at MSD explained that a Mission Action Plan, which
           included modifying the period of performance for some ERO contracts, was
           developed. In April 2012, an official at the Office of Assurance and Compliance
           explained that the Office of the Chief Financial Officer had developed a different
           plan during spring 2011, but was unable to provide us any documentation. In
           September 2012, ICE officials at OBPP indicated that corrective actions were in
           draft. In October 2012, MSD officials provided documentation supporting partial
           implementation of corrective actions. This plan included the modification of the
           period of performance for ERO contracts and is intended to better align contract
           start dates with available funding. Although this plan has been underway since
           May 2012, corrective actions had not been fully implemented by the end of our
           fieldwork.

           Recommendations

           We recommend that the Executive Associate Director for Enforcement and
           Removal Operations:

           Recommendation #1:

           Develop a plan in conjunction with the Office of Acquisition to ensure that ICE
           contracting officials provide written notification to vendors indicating that funds
           are available before the performance start date of services for all contracts with
           the SAF clause.

           Recommendation #2:

           Coordinate with Burlington Finance Center officials to revise standard operating
           procedures to ensure that invoices related to detention contracts with the SAF
           clause are not rejected solely because funds are not readily available to pay them.

           Recommendation #3:

           Ensure timely and sufficient obligation of funds within the financial system, in
           compliance with laws and regulations.



www.oig.dhs.gov                                 7                                        OIG-13-80
                               OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security



           Recommendation #4:

           Continue implementation of corrective actions, ensuring that pertinent officials
           and personnel are aware of official plans.

           Management Comments and OIG Analysis

           A copy of the ICE’s response in its entirety is included as appendix B. ICE
           concurred with all the recommendations. A summary of the responses and our
           analysis of the ICE’s response to the recommendations follows.

           Management Response to Recommendation #1: ICE concurs and has begun
           action to address this recommendation. ICE has indicated that it has established
           a policy of forward funding these contracts so that funds are available on the
           contracts into the new fiscal year.

           OIG Analysis: We consider ICE’s actions responsive to the recommendation.
           The recommendation will remain open and resolved until ICE provides us (1)
           evidence that corrective actions have been completed and (2) a formal closeout
           request.

           Management Response to Recommendation #2: ICE concurs and has taken
           action to address this recommendation. ICE has indicated that it has mitigated
           future risks associated with the rejection of detention related invoices, including
           significantly reducing the use of SAF clauses for detention contracts. Further, ICE
           stated that it will review and revise its procedures as appropriate to improve its
           invoice payment process.

           OIG Analysis: We consider ICE’s actions responsive to the recommendation.
           However, the recommendation will remain open and unresolved until ICE
           provides us (1) evidence that corrective actions have been completed and (2) a
           formal closeout request.

           Management Response to Recommendation #3: ICE concurs with this
           recommendation and has indicated that it will develop and implement a plan to
           resolve this recommendation.




www.oig.dhs.gov                                 8                                        OIG-13-80
                               OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


           OIG Analysis: We consider ICE’s actions responsive to the recommendation.
           However, the recommendation will remain open and unresolved until ICE
           provides us (1) evidence that corrective actions have been completed and (2) a
           formal closeout request.

           Management Response to Recommendation #4: ICE concurred with this
           recommendation and stated that ICE’s ERO OAQ will work to modify contract
           periods of performance to properly align contract start dates with anticipated
           funding availability.

           OIG Analysis: We consider ICE’s actions responsive to the recommendation.
           However, the recommendation will remain open and unresolved until ICE
           provides us (1) evidence that corrective actions have been completed and (2) a
           formal closeout request.




www.oig.dhs.gov                                9                                       OIG-13-80
                                     OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
   to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   This report provides the results of our work to determine whether ICE ERO is
   appropriately managing contract funding and payments. To accomplish our objective,
   we reviewed applicable Federal laws and regulations to identify acquisition and
   reporting requirements. To gain an understanding of internal controls significant within
   the context of the audit objective and to determine compliance, we evaluated
   Department and component-specific procurement policies and procedures. We also
   interviewed ICE representatives to obtain an understanding of their contract funding
   and payment process, including internal controls and corrective actions for issues noted
   by independent auditors.

   The Office of Acquisitions provided OIG with raw data of all Office of Acquisitions–
   managed contracts from October 1, 2010, through March 31, 2012. This resulted in
   1,164 documents. We removed duplicates and lines that appeared to lack activity and
   judgmentally selected 54 detention-related invoices. We narrowed this list of 54
   invoices to include only contracts that contained the Availability of Funding clause, which
   resulted in 20 invoices. Of those, 4 were improperly rejected.

   We reviewed each unique contract and order number in WebView and documented the
   rejected invoice, invoice number, date the invoice was submitted, date of invoiced
   services, date the invoice was received by the Burlington Finance Center, amount of the
   invoice, and rationale provided for any rejected invoices.3 Next, we located the same
   contract and order number in the Federal Financial Management System and
   documented the date funds were obligated for the contract’s specific invoice(s), amount
   that was obligated, and date and amount of the paid invoice. We analyzed whether the
   invoice was properly rejected; whether the funds were obligated before, during, or after
   the invoice period; and how many days the Burlington Finance Center took to pay the
   invoice after receiving it.


   3
       The information system used by ICE to process and document invoices.


www.oig.dhs.gov                                        10                                OIG-13-80
                              OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


   We identified the same contract and order number in ICE’s financial system and
   analyzed the date funds were obligated for the contract’s specific invoices and amounts
   obligated in relation to the dates and amounts listed in the invoices. Additionally, we
   determined how many days ICE took to pay the improperly rejected proper invoices.

   We conducted this performance audit between April and December 2012 pursuant to
   the Inspector General Act of 1978, as amended, and according to generally accepted
   government auditing standards. Those standards require that we plan and perform the
   audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
   findings and conclusions based upon our audit objectives. We believe that the evidence
   obtained provides a reasonable basis for our findings and conclusions based upon our
   audit objectives.




www.oig.dhs.gov                              11                                       OIG-13-80
                                           OFFICE OF INSPECTOR GENERAL
                                                   Department of Homeland Security


   Appendix B
   Management Comments to the Draft Report


                                                                                 U.s. Dt p. nmt a r of lIomt ll nd Stc-urhy
                                                                                 500 12- Srrtc1. SW
                                                                                 WMh!nglCm, IX 20SJb


                                                                                 u.s. Immigration
                                                                                 and Customs
                                                                                 Enforcement

                                                        March 15, 2013


              MEMORANDUM FOR:               Anne L. Richards
                                            Assistant lnspCCIO( General for Audits
                                            Office of Inspector "Aneral

              FROM:                         Radha C. Sekar '    ,0 -
                                            Acting EXI..'CU(lv Associate Director, Managl.."mcnt and
                                            Administration

              SUBJ ECT:                     Management Response to O[G Draft Report titled, "U.S.
                                            Immigration and Customs Enforcemem's Enforcement and
                                            Rcmo,'al Operations' Contract Funding and Payment Processes" ,
                                            dated January 30, 20 13.

              U.S. Immigration and Customs Enforcement (ICE) appreciates the opportunity to respond to the
              subjt,'ct draft report. Attachl.."(\ is our response for each of the four recommendat ions. We have
              reviewed and concur wilh all recommendations. ICE will continue working to resolve all
              identified weaknesses.

              Should you have any questions or concerns, please contact Michael C. Moy, Audit Portfolio
              Manager. at (202) 732-6263, or bye-mail at Michael.C.Moy@icc.dhs. gov.

              Attachment




                                                                                 \\'W\\'.ltC.gOV




www.oig.dhs.gov                                                     12                                                        OIG-13-80
                                       OFFICE OF INSPECTOR GENERAL
                                               Department of Homeland Security




                                 u.s. Immigration and Custom s Enforcement (ICE)
                       DIG A udit: I CE COlltract FUlldillg allli Paymellt Pl'Ocessfor E RO



                  I. Develop a pl an in conjunction with the Office of Acquisition to ensure that ICE
                     contracting officia ls provide written notification 10 vendors indicating that fund s are
                     available before thc pcrfonnance start date of services for all contracts with the SAF
                     clause.

                      ICE concurs. l CE has already established a policy of fonvard funding these
                      contracts so Ihal fund s are 3\'ailable on the contracts into the new fiscal year. This
                      will preclude the use of th e SA,F clause, and the current modification of the contract
                      will act as notification of available fund s. We ask that this recommendation be
                      considered closed.

                  2. Coordinate with Burlington Finance Center officials to revise standard operating
                     procedures to ensure that invoices rclated to detention contracts with the SAF clause arc
                     not rejected solely because fund s are not read il y available to pay them.

                      ICE concurs. ICE has mitigated future risks associated with tbe rejection of
                      detention related invoices, including significantly reducing the usc of SAF clauses
                      for detention contracts. Further, ICE wiII review and revise its procedures as
                      a ppropria te to improve its invoice payment process. We ask that this
                      rccommendation be considered Resolved and Open , pending ICE's r eview and
                      revision of ils procedures.

                  3. Ensure timely and sufficient ob ligation of funds wi thin th e financi al system in
                     compliance with laws and regulations.

                      ICE concurs. IC E will develop and implement a plan to reso lve thi s
                      reco mmendation. \Ve request the OIG con sider this r eco mmendation resolved and
                      open pendin g produ ction of the plan .

                  4. Continue implementat ion of corrective actions, ensuring that pertinent officials and
                     personnel arc aware of official plans.

                     ICE concurs. ICE's Enforcement and Removal Operations (ERO) and Office of
                     Acquisition Man agement (OAQ) will work to modify contra ct periods of
                     pe rformance to properly align contract start da tes with anticipated fundin g
                     availability. We r equest the OIG consider this r ecommendation resolved and open
                     pe nding impl ementation of corrceth'e actions,




www.oig.dhs.gov                                               13                                                 OIG-13-80
                             OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix C
   Major Contributors to This Report
   Sandra John, Director, Financial Management Division
   Eric Young, Audit Manager
   Alejandro Jaca-Mendez, Auditor-In-Charge
   Terrell Tindull, Auditor-In-Charge
   Pete Christopher, Program Analyst
   Garrick Greer, Auditor
   Jason Kim, Senior Auditor
   Gwendolyn Schrade, Senior Program Analyst
   Kevin Dolloson, Communications Analyst
   Ralleisha Dean, Referencer




www.oig.dhs.gov                             14                      OIG-13-80
                                OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


   Appendix D
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Acting Chief Privacy Officer

   U.S. Immigration and Customs Enforcement

   Chief Financial Officer
   Executive Associate Director, Enforcement and Removal Operations
   Assistant Director of Operations Support
   ICE Audit Liaison
   OBPP Audit Liaison

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                 15                         OIG-13-80
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
